No. 20-6829

IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH J. BUTTERCASE,
Petitioner,
v.
STATE OF NEBRASKA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEBRASKA SUPREME COURT
\v

APPLICATION FOR SUSPENSION OF ORDER DENYING
PETITION FOR WRIT OF CERTIORARI

Joseph J. Buttercase #76999
Nebraska State Penitentiary
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161
PRO SE PETITIONER

IN THE
SUPREME COURT OF THE UNITED STATES

APPLICATION FOR SUSPENSION OF ORDER DENYING
PETITION FOR WRIT OF CERTIORARI

TO:

The Honorable Neil M. Gorsuch, Associate Justice of the
Supreme Court and Circuit Justice for the Eighth Circuit
Petitioner Joseph J. Buttercase prays that an order be entered suspending

this Court's order denying the petition for writ of certiorari.
In support of this motion/ Petitioner submits the following:
1.

This Court's jurisdiction is invoked pursuant to 28 U.S.C. ยง 1257(a).

2.

On February 22/ 2021/ this Court entered its order denying the petition

for writ of certiorari in Buttercase v. Nebraska/ No. 20-6829/ 2011 WL 666720
(U.S. Feb. 22, 2021).

3.

Today, March 9, 2021, Petitioner timely filed a petition for rehearing

in this Court simultaneously with this motion.
CONCLUSION
WHEREFORE, Petitioner respectfully requests that an order be entered
suspending this Court's order denying the petition for writ of certiorari
until this Court's final disposition of the petition for rehearing.
Respectfully submitted,

Joseph J ^Buttercase #76999
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161
March 9, 2021

